TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Management Needs to Continue Monitoring
                  Some Case Selection Issues As the Private
                   Debt Collection Program Is Implemented



                                             April 2006

                              Reference Number: 2006-30-064




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   April 26, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Management Needs to Continue Monitoring
                               Some Case Selection Issues As the Private Debt Collection Program Is
                               Implemented (Audit # 200530012)

 This report presents the results of our review of the Private Debt Collection (PDC) program. The
 overall objective of this review was to evaluate the effectiveness of the Internal Revenue Service
 (IRS) planning and implementation of the PDC program.

 Synopsis
 Overall, the IRS has taken positive steps to effectively plan and implement certain aspects of the
 PDC program. The IRS has developed a draft letter and a related Publication with pertinent
 information to notify taxpayers their accounts are being transferred to Private Collection
 Agencies (PCA). Also, the draft procedures for PCAs and the IRS Referral Unit1 appear to be
 sufficiently documented. The IRS established a process for implementing the PDC program. As
 part of the process, the IRS selected a team of executives and staff members to design and
 oversee implementation of the program. They conducted regular meetings to discuss issues and
 address concerns. Throughout the process, the team monitored progress and made changes when
 necessary.
 At the time of our review, the IRS planned to place 45,300 cases with PCAs during June through
 September 2006. Initially, the distribution of these cases was to be based, in part, on the amount
 of the taxpayer’s balance due. Upon reviewing reports obtained from the IRS for the months of
 June, July, and August 2005, we determined the volume of cases available was not sufficient to

 1
   The Referral Unit is responsible for assigning cases to PCAs; maintaining cases; recalling cases; responding to
 inquiries from taxpayers, PCAs, and IRS staff; and handling taxpayer complaints.
                              Management Needs to Continue Monitoring Some
                                 Case Selection Issues As the Private Debt
                                    Collection Program Is Implemented


fill this particular placement plan and provided this information to IRS management. The IRS
was also evaluating the inventory levels and has since revised its placement plan, including the
process used for its case selection criteria. As development of the PDC program progresses, the
IRS may adjust these factors again as the volume of cases available is constantly changing. Due
to these factors, the IRS should continue to monitor the volume of cases available for placement
with PCAs, as it has thus far, to ensure there are enough cases to fill its placement plan.
We also determined that approximately 72 percent of the cases available for placement in the
PDC program contained a balance due2 that was over 2 years old. The IRS is now considering a
revision to case selection criteria that will increase the balance-due age even further. IRS
management indicated they have a long-term strategy in place to include more current cases in
the PDC program. However, they stated the new Filing and Payment Compliance project3
currently limits their ability to accomplish this strategy. As previously noted, the IRS is
developing the PDC program in an ever-changing environment. Therefore, the IRS should
continue to monitor its strategy of including cases with a more current balance due, as well as
continue to monitor the limitations that affect implementation of the strategy.
For the initial phase of the PDC program, the IRS wants to place simpler cases with PCAs, such
as those in which the taxpayer has filed all tax returns due. Although the PCAs can try to get
taxpayers to file delinquent returns, they cannot obtain an Installment Agreement4 when
taxpayers have not filed all returns that are due (nonfilers). Unless PCAs are able to obtain full
payment, these cases would have to be referred back to the IRS to work. This would result in
less direct revenue from the PDC program and would divert IRS resources in the Referral Unit.
We determined that, contrary to IRS intentions, the case selection criteria currently in place
would allow certain nonfiler cases to be assigned to the PCAs. Management agreed to conduct
further review of nonfiler conditions to determine whether the nonfiler cases should be excluded
from inventory.

Recommendations
During the course of our audit, we discussed our concerns with IRS management, who
considered our issues and made adjustments when necessary. We made no recommendations in
this report. Therefore, no response was required. However, the IRS provided a response to
formally address our results.




2
  A balance due represents an unpaid assessment for which a taxpayer owes the IRS.
3
  The Filing and Payment Compliance project was initiated to address the inventory of delinquent tax debt that is not
actively being collected by the IRS due to limited resources.
4
  An Installment Agreement allows taxpayers to pay tax liabilities by making regular payments to the IRS over time
rather than all at once.
                         Management Needs to Continue Monitoring Some
                            Case Selection Issues As the Private Debt
                               Collection Program Is Implemented



Response
The Commissioner, Small Business/Self-Employed Division, agreed with our concerns and
reaffirmed the IRS’ commitment to continue monitoring the PDC project and to make any
changes that may be necessary to maximize the effectiveness of its strategy. The Commissioner
also identified plans to track activities related to nonfiler cases to ascertain the PCAs’
effectiveness at resolving the condition as well as the long-term benefits of assigning cases with
this condition to PCAs. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Curtis W. Hagan, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-3837.
                                  Management Needs to Continue Monitoring Some
                                     Case Selection Issues As the Private Debt
                                        Collection Program Is Implemented




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Proper Information Is Included in the Draft Internal Revenue Service
          Taxpayer Notification Letter and Related Publication .................................Page 3
          Draft Procedures for Private Collection Agencies and the
          Referral Unit Appear to Be Sufficiently Documented..................................Page 3
          While the Internal Revenue Service Has Taken Positive Steps in
          Developing the Private Debt Collection Program, Continued
          Monitoring of Some Case Selection Issues Is Necessary .............................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
                               Management Needs to Continue Monitoring Some
                                  Case Selection Issues As the Private Debt
                                     Collection Program Is Implemented




                                              Background

To help address the growing tax debt inventory, the Department of the Treasury proposed that
Congress pass legislation to authorize the Internal Revenue Service (IRS) to use Private
Collection Agencies (PCA) to help collect tax debts for simpler types of cases.1 The IRS refers
to this effort as the Private Debt Collection (PDC) program.
On October 22, 2004, the President signed the American Jobs Creation Act of 20042 that created
new Internal Revenue Code Section (§) 6306 (2004) to permit PCAs to help collect Federal
Government tax debts. The law allows PCAs to locate and contact any taxpayer specified by the
IRS to request from such taxpayer full payment of the amount of Federal tax due from the
taxpayer and to obtain financial information with respect to such taxpayer. The law allows the
IRS to retain and use an amount not in excess of 25 percent of the amount collected by the PCAs
to pay for the cost of services performed under such contract and an amount not in excess of
25 percent collected for collection enforcement activities of the IRS.
According to the IRS, the initiative to use PCAs will:
    •    Help reduce a significant and growing amount of tax liability deemed uncollectible due to
         IRS collection and resource priorities (as of September 2005, the gross accounts
         receivable to the IRS was $258 billion).
    •    Help maintain confidence in the tax system.
    •    Enable the IRS to focus its existing collection and enforcement resources on more
         difficult cases and issues.
The legislation provides that the provisions of the Fair Debt Collection Practices Act3 shall apply
to PCAs. The law also prohibits PCAs from committing any act or omission which employees
of the IRS are prohibited from committing in the performance of similar services. According to
the IRS, PCAs will be required to adhere to all taxpayer protections and would be prohibited
from threatening or intimidating taxpayers or otherwise suggesting that enforcement action will
or may be taken if a taxpayer does not pay the liability. The PCAs must also adhere to all
security and privacy regulations for systems, data, personnel, physical security, and taxpayer
rights protections. To ensure compliance with these requirements, the IRS is responsible for
providing oversight of PCA actions.



1
  Simpler types of cases are those in which the taxpayer has filed all tax returns due.
2
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
3
  15 U.S.C. § 1601 note, 1692-1920 (2000).
                                                                                             Page 1
                              Management Needs to Continue Monitoring Some
                                 Case Selection Issues As the Private Debt
                                    Collection Program Is Implemented



During this audit, we intended to review procedures for the major segments of the PDC program.
However, the IRS had not completed documentation of procedures for some areas when we
concluded our audit. These areas included procedures for the Oversight Unit and the Contracting
Officer’s Technical Representative, as well as training for the Oversight Unit, Contracting
Officer’s Technical Representative, Referral Unit (RU),4 and PCAs. As a result, we were unable
to evaluate these segments and will address these areas in a subsequent review.
On March 9, 2006, the IRS awarded contracts to 3 firms from a field of 33 firms for the first
phase of the PDC program. However, two of the unsuccessful bidders filed post-award protests
with the Government Accountability Office claiming the IRS’ evaluation of proposals was
unreasonable and inconsistent with the IRS’ Request for Quotation. The two post-award protests
were filed on March 17 and 20, 2006. The Government Accountability Office will review the
post-award protests and issue its recommendation on the protests within 100 days from the date
of filing. On March 22, 2006, the IRS issued notices to each of the three awardees to suspend
work based on the post-award protests.
This review was performed in the Wage and Investment Division and Small Business/
Self-Employed Division at the IRS National Headquarters in Washington, D.C.; the Wage and
Investment Division and Small Business/Self-Employed Division in New Carrollton, Maryland;
and the Office of Filing and Payment Compliance and the Submission Processing Site in
Philadelphia, Pennsylvania, during the period March 2005 through January 2006. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




4
  The RU is responsible for assigning cases to PCAs; maintaining cases; recalling cases; responding to inquiries
from taxpayers, PCAs, and IRS staff; and handling taxpayer complaints.
                                                                                                             Page 2
                              Management Needs to Continue Monitoring Some
                                 Case Selection Issues As the Private Debt
                                    Collection Program Is Implemented




                                       Results of Review

Proper Information Is Included in the Draft Internal Revenue Service
Taxpayer Notification Letter and Related Publication
The IRS will mail a notification letter and IRS Use of PCAs (Publication, not yet numbered) to
all taxpayers whose accounts are assigned to PCAs. We reviewed the October 24, 2005, draft
letter and Publication and believe they provide a clear explanation of the actions being taken on
the taxpayer’s account. Both documents provide a telephone number for taxpayers to contact the
IRS if they have any questions, as well as how to contact the Taxpayer Advocate Service (TAS)5
if they are experiencing problems in dealing with the IRS. Also, the Publication identifies PCA
responsibilities and provides taxpayers with information on their rights.

Draft Procedures for Private Collection Agencies and the Referral Unit
Appear to Be Sufficiently Documented
We reviewed draft procedures for PCAs and the RU and believe they appropriately define the
steps necessary for operating under the PDC program. The draft PCA procedures dated
October 6, 2005, provide general instructions for training employees, maintaining security over
taxpayer information, documenting case actions, interacting with the IRS, interacting with
taxpayers, and protecting taxpayer rights. The draft also includes procedures for requesting
taxpayers to pay their tax liabilities, monitoring Installment Agreements (IA),6 referring cases to
the TAS, handling taxpayer complaints, reporting, and conducting program reviews. PCAs will
use these as guidelines and are responsible for developing more specific instructions to meet
program requirements.
The draft RU procedures, dated September 13, 2005, provide detailed instructions for validating
weekly Potential New Inventory7 files, screening cases for assignment, updating IRS systems
with information on cases assigned to PCAs, processing documents received from PCAs, and
reviewing IA requests. The draft also includes procedures for resolving missing payments;
processing payments erroneously received by PCAs; issuing case recalls; performing quality
review of RU actions; interacting with taxpayers, PCAs, and IRS staff; resolving complaints; and
addressing TAS inquiries. The draft procedures provide flowcharts, break down work

5
  The TAS is an independent organization within the IRS that helps individual and business taxpayers resolve
problems with the IRS.
6
  An IA allows taxpayers to pay tax liabilities by making regular payments to the IRS over time rather than all at
once.
7
  The Potential New Inventory files include all cases that meet the IRS selection criteria.
                                                                                                              Page 3
                             Management Needs to Continue Monitoring Some
                                Case Selection Issues As the Private Debt
                                   Collection Program Is Implemented



assignments by employee level, and identify the related section of the Business Systems
Requirements Report8 or Statement of Work9 upon which the procedures are based.

While the Internal Revenue Service Has Taken Positive Steps in
Developing the Private Debt Collection Program, Continued
Monitoring of Some Case Selection Issues Is Necessary
The IRS has established a process for implementing the PDC program. As part of the process,
the IRS selected a team of executives and staff members to design and oversee implementation
of the program. They conduct regular meetings to discuss issues and address concerns. To keep
the course of development steady, the IRS created a schedule that identifies both major and
minor tasks to be completed. The schedule identifies the timeline for completion of each task, as
well as the person responsible for overseeing development. Throughout the process, the team
has monitored progress and made changes when necessary. During the course of our audit, we
discussed our concerns with management who considered our issues and made adjustments as
appropriate. Although we are not making any recommendations, we believe management should
continue to monitor the following issues as they progress in developing the PDC program.

The IRS needs to continue monitoring inventory levels to ensure the volume of
cases available for placement is sufficient
In May 2005, the IRS planned to place 45,300 cases with PCAs during January through
August 2006. This time period was delayed when a potential contract bidder filed a lawsuit
requesting changes to the criteria used to select the PCAs. The distribution of these cases was to
be based, in part, on the amount of the taxpayer’s balance due. The IRS established the
following Balance-Due Ranges:
    •   $500 to <$1,000.
    •   $1,000 to <$5,000.
    •   $5,000 to <$10,000.
    •   $10,000 to <$25,000.
In September 2005, we informed the IRS there were not enough cases across all the dollar ranges
to fill the IRS placement plan. To obtain additional cases, we suggested the IRS consider
making adjustments to the selection criteria. One example we provided was to include multiple



8
  The Business Systems Requirements Report defines the requirements that form the basis for system design,
development, integration, and deployment.
9
  The Statement of Work outlines the tasks, duties, and responsibilities to be performed under a contract.
                                                                                                         Page 4
                              Management Needs to Continue Monitoring Some
                                 Case Selection Issues As the Private Debt
                                    Collection Program Is Implemented



balance-due modules.10 Another change for consideration was increasing the dollar threshold of
the balance-due amount.
As of October 5, 2005, the IRS still planned to place 45,300 cases with PCAs. However, the IRS
made slight changes to the volume of cases to be placed in each Balance-Due Range. In
addition, the time period for placement changed to June through September 2006.
To conduct a more comparable analysis of data, we then obtained directly from the IRS reports
that identified the volume of cases meeting the IRS selection criteria for inclusion in the PDC
program. The reports account for the cases available during the months of June, July, and
August 2005.
Based upon the data in the IRS reports, it appeared the projected volume of cases available
would be sufficient, in total, to meet the placement goal of 45,300 cases. However, as illustrated
in Figure 1, our analysis showed the volumes of cases in three of the four Balance-Due Ranges
were not sufficient to fill the IRS’ placement plan. For example, the IRS planned to place 12,650
cases in the Balance-Due Range of $10,000 to <$25,000. However, we determined there were
only 4,798 cases available in this range. Having an insufficient volume of cases to fill the
placement plan may limit the IRS’ ability to reach its collection goals for the PDC program.
                   Figure 1: Volume of Cases at Each Balance-Due Range

                    50,000
                    45,000
                    40,000
                    35,000
                    30,000
                    25,000
                    20,000
                    15,000
                    10,000
                     5,000
                          0
                               $500 to       $1K to       $5K to       $10K to         Total
                                <$1K          <$5K        <$10K         <$25K

                                 Planned Placements        Projected Cases Available

             Source: IRS October 5, 2005, placement plan and IRS June, July, and August 2005
             inventory reports.


10
  A module refers to each tax return filed by a taxpayer for a specific period (year or quarter) during a calendar year
for each type of tax.
                                                                                                               Page 5
                             Management Needs to Continue Monitoring Some
                                Case Selection Issues As the Private Debt
                                   Collection Program Is Implemented



While we conducted our analysis, the IRS was also in the process of evaluating data and again
revised its placement plan. In addition to placement of the 45,300 cases noted above, the IRS
has decided to place an additional 30,000 cases with the PCAs during October through
December 2006. To attain this goal, the IRS recognized the need to revise its selection criteria to
have enough cases for placement. As we suggested in September 2005, the IRS reevaluated the
selection criteria and has indicated the changes it is considering will provide approximately
62,000 additional cases in any given week. The IRS is also considering changes in the future
that include allowing multiple balance-due modules and increasing the dollar threshold. While it
may not be feasible for the IRS to implement these two factors at this time, due to technical
complexity in relation to time constraints, we believe they would enhance the IRS’ efforts to
reach the PDC program’s long-term revenue projections.
The makeup of inventory is ever changing, and the IRS will likely make adjustments to the PDC
program as it continues development. Therefore, we believe the IRS should continue to monitor
the volume of cases available, as it has thus far, to ensure it has enough cases to fill its placement
plan.

A majority of the cases available for placement have a balance due over 2 years
old
Cases are to be selected from two IRS inventories of unassigned cases. The first is the Queue,
which is the inventory from which the IRS selects cases to be assigned to field Collection
function employees. The second inventory is made up of cases that have been Shelved, those
that have been removed from the Queue because they are lower priority cases. The criteria for
selecting PDC program cases include a factor for the age in status11 but do not account for the
age of the balance due. For example, the criterion for Shelved cases was fewer than 6 months in
that status. However, many Shelved cases have been in some prior status for a number of
months.
In analyzing IRS reports,12 we determined 77 percent of the Shelved cases had a tax delinquency
(date from assessment) more than 2 years old. In addition, 45 percent of the cases to be assigned
from the Queue were more than 2 years old. Overall, approximately 72 percent of the cases
available for placement in the PDC program were more than 2 years old.
The IRS is considering revising the selection criteria to obtain additional cases for placement.
One revision being considered will increase the age threshold to 2 years in status. The current
criteria are fewer than 6 months in status for Shelved cases and between 60 days and 1 year for
Queue cases. The revision being considered will increase the balance-due age of the cases
included in the PDC program even further.

11
 The age in status represents the amount of time a case has been assigned to a particular inventory.
12
 Reports identified on page 5 that provide information for the cases available during the months of June, July, and
August 2005.
                                                                                                            Page 6
                             Management Needs to Continue Monitoring Some
                                Case Selection Issues As the Private Debt
                                   Collection Program Is Implemented



A study conducted by Price Waterhouse reflects the older the debt, the harder it is to collect.
Specifically, the study determined PCAs have a collection rate of only 1 percent on delinquent
nontax Government debts over 24 months old. Including a significant number of cases with a
balance due over 2 years old may limit the IRS’ ability to reach its collection goals for the PDC
program.
When we discussed this issue with management, they indicated they have a long-term strategy in
place to include more current cases in the PDC program. However, under the initial
implementation of the PDC program, they are using the Filing and Payment Compliance project.
This is a new piece of the IRS modernization plan, which is just being implemented and
currently limits the IRS’ ability to select cases earlier in the collection process. As a result,
initial inventory is more aged than they expect it will be in the future. The IRS stated that
implementing the strategy to obtain more current cases is reliant upon future funding. The IRS is
working under the expectation that funding will be made available and is moving forward with
its vision strategy. We believe it is important the IRS continue to monitor its strategy of
obtaining more current cases, as well as the limitations that may affect implementation.

Inventory selection criteria do not exclude all nonfiler cases
For the initial phase of the PDC program, the IRS wants to place simpler cases with PCAs, such
as those in which the taxpayer has filed all tax returns that are due. Per established procedures,
PCAs can try to get taxpayers to file delinquent returns; however, they cannot obtain an IA when
taxpayers have not filed all returns that are due (nonfilers). Unless PCAs are able to obtain full
payment, these cases would have to be referred back to the IRS to work. This would result in
less direct revenue from the PDC program and would divert IRS resources in the RU.
To determine whether the case selection process would eliminate nonfilers as intended, we
reviewed a random sample of 73 Shelved and 73 Queue cases. We determined 62 of the
73 Shelved cases and 30 of the 73 Queue cases would meet the planned selection criteria for
assignment to PCAs.13 However, we found that 34 of the 62 Shelved cases and 13 of the
30 Queue cases were for taxpayers that had not filed all required tax returns. The procedures
used by the IRS did not automatically identify and eliminate all nonfiler cases. When informed
of our results, IRS management pointed out there are instances when it would be appropriate to
include a nonfiler case. For example, a taxpayer may not have been required to file a return.
However, management agreed to conduct further review of nonfiler conditions to determine
whether the nonfiler cases should be excluded from inventory.




13
  The others would not qualify for assignment due to such factors as Invalid Taxpayer Identification Numbers or
accounts frozen for various reasons such as taxpayers residing in an area declared as a natural disaster.
                                                                                                          Page 7
                        Management Needs to Continue Monitoring Some
                           Case Selection Issues As the Private Debt
                              Collection Program Is Implemented



Recommendation
During the course of our audit, we discussed our concerns with IRS management, who
considered our issues and made adjustments when necessary. We are making no
recommendations in this report. Therefore, no response was required. However, the IRS
provided a response to formally address our results.
       Management’s Response: The Commissioner, Small Business/Self-Employed
       Division, agreed with our concerns and reaffirmed the IRS’ commitment to continue
       monitoring the PDC project and to make any changes that may be necessary to maximize
       the effectiveness of its strategy. The Commissioner also identified plans to track
       activities related to nonfiler cases to ascertain the PCAs’ effectiveness at resolving the
       condition as well as the long-term benefits of assigning cases with this condition to
       PCAs.




                                                                                          Page 8
                             Management Needs to Continue Monitoring Some
                                Case Selection Issues As the Private Debt
                                   Collection Program Is Implemented



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the Internal Revenue
Service (IRS) planning and implementation of the Private Debt Collection program. To
accomplish our objective, we:
I.      Evaluated the process for selecting cases to be assigned to the Private Collection
        Agencies (PCA).
        A. Interviewed IRS management to identify the inventory selection criteria.
        B. Determined how the sample of cases would be assigned to the PCAs.
        C. Obtained from the IRS TRCAT file1 a download of accounts assigned to the Queue2
           and those closed as not collectible due to lack of resources (Shelved).3 We validated
           the reliability of the downloaded data by comparing it to the information available
           through research of the Integrated Data Retrieval System.4 We selected a random
           sample5 of 73 Queue and 73 Shelved accounts to determine if IRS criteria make the
           best potential for success (age of case, IRS predictive result of the case, etc.).
        D. Analyzed information from the IRS to approximate the universe and age of cases
           meeting the selection criteria.
II.     Evaluated the adequacy of the draft procedures established for cases referred back to the
        IRS from the PCAs and the adequacy of the draft procedures for the PCAs. Also, we
        evaluated the draft IRS taxpayer notification letter and related Publication to determine if
        they are informative for the taxpayer and/or representative.




1
  The TRCAT file is an IRS database that identifies all accounts with a balance due.
2
  The Queue is the inventory from which the IRS selects cases to be assigned to field Collection function employees.
3
  The populations of Queue and Shelved cases, respectively, were 29,716 and 18,659 as of June 26, 2005.
4
  This is an IRS computer system capable of retrieving or updating stored information; it works in conjunction with
a taxpayer’s account records.
5
  We selected a random sample because we did not intend to make projections based on our results.
                                                                                                            Page 9
                        Management Needs to Continue Monitoring Some
                           Case Selection Issues As the Private Debt
                              Collection Program Is Implemented



                                                                              Appendix II

                 Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Todd M. Anderson, Lead Auditor
James D. Dorrell, Senior Auditor
Christina M. Dreyer, Auditor
Denise M. Gladson, Auditor




                                                                                       Page 10
                       Management Needs to Continue Monitoring Some
                          Case Selection Issues As the Private Debt
                             Collection Program Is Implemented



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Project Director, Filing and Payment Compliance Modernization, Small Business/Self-Employed
Division SE:S:C:FPCMO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 11
        Management Needs to Continue Monitoring Some
           Case Selection Issues As the Private Debt
              Collection Program Is Implemented



                                               Appendix IV

Management’s Response to the Draft Report




                                                       Page 12
